  evaluation




AMTRAK: TOP MANAGEMENT AND
PERFORMANCE CHALLENGES




               Report No. OIG-SP-2014-012 | September 29, 2014
This page intentionally left blank.
      NATIONAL RAILROAD
      PASSENGER CORPORATION




Memorandum
To:               Joseph Boardman, President and Chief Executive Officer



From:             Tom Howard, Inspector General

Date:             September 29, 2014

Subject:          Amtrak: Top Management and Performance Challenges
                  (Report No. OIG-SP-2014-012)


This is our first report assessing the top management and performance challenges
facing Amtrak (the company). Many other inspectors general are legislatively required
to produce similar reports focusing on high-risk/impact activities and performance
issues that affect programs, operations, and achievement of strategic goals. Those
reports have shown that periodically identifying and reporting the challenges to
management, other decision-makers, and Congress can help improve organizational
performance. Although we are not legislatively required to report on management
challenges, we have prepared this report to provide similar benefits.

To identify the most significant management challenges, we considered the impact of
the issues on achieving the company’s mission; revenues and operational costs; and
susceptibility to fraud, waste, and abuse. We obtained the views of senior management
officials, and we considered congressional views based on hearings, discussions with
congressional staff, and other information sources. The oversight and audit reports
discussed in this report are listed in Appendix A.

The company has made significant progress implementing its 2011 strategic plan 1 and
accomplishing positive results; however, a number of challenges remain to be
addressed. In recent years, key areas of progress include reducing the adjusted net
operating loss from $446 million to $355 million, lowering the debt by $1.4 billion, and


1   Amtrak, Strategic Plan FY11–FY15, October 2011.
                                                                                                         2
                                Amtrak Office of Inspector General
                        Top Management and Performance Challenges
                        Report No. OIG-SP-2014-012, September 29, 2014

increasing annual ridership by more than 12 percent to nearly 32 million riders. These
accomplishments provide a solid foundation for pursuing the various improvement
initiatives identified in the company’s update to its strategic plan.2

The challenges we identified are rooted in long-standing and complex issues that will
take continuous attention over several years to effectively address. In our view, the
most significant challenges are in six areas:
       Sustaining commitment to improving governance3
       Enhancing financial performance in a public/private environment
       Improving train operations and asset management
       Improving acquisitions and procurement
       Using information technology to improve business operations
       Improving human capital management

Below, we discuss the six areas by noting the substance of the challenge, the progress
made, and what remains to be addressed.


SUSTAINING COMMITMENT TO IMPROVING GOVERNANCE
Over the last several years, many of our reports have identified weaknesses in
governance processes as a key cause of the deficiencies we have noted. In particular, we
have identified an absence of internal control processes, as well as, a lack of discipline in
following the processes that do exist. In March 2012, we reported that the company did
not have a formal, coordinated, and systematic enterprise-wide framework to identify,
analyze, and manage risk. A key building block for such a process is a strong system of
internal controls. We noted that such a framework is necessary to provide reasonable
assurance that operations are carried out in an efficient and effective manner. Instead,
the company was using ad hoc and inconsistent processes to identify and address risks.

When individual departments identified risks, senior executives did not collectively
consider the risks in the context of issues such as their relative priority, adequacy of
mitigation plans, and whether sufficient resources were being applied to address them.


2Amtrak, Strategic Plan FY14–FY18, December 2013.
3Corporate governance is defined as a system of internal control encompassing policies, processes, and
people, which serves the needs of shareholders and other stakeholders by directing and controlling
management activities with good business savvy, objectivity, accountability, and integrity.
                                                                                         3
                            Amtrak Office of Inspector General
                    Top Management and Performance Challenges
                    Report No. OIG-SP-2014-012, September 29, 2014

Further, they were not presented to the Board of Directors in a structured manner so the
Board could assess the priorities, risks, mitigation plans, and resource adequacy. We
recommended that the company develop and implement a company-wide framework
for risk management that focuses on the strategic goal to improve financial
performance.

These are some of the examples of the deficiencies we identified over the last several
years, that were caused by weak controls:

      Weaknesses in the capital project selection process. The company has not
       consistently used sound business practices in each phase of the capital planning
       process, including developing sound project proposals with performance
       measures, learning from the execution and outcome of projects, and controlling
       unauthorized expenditures. Because the company did not use sound business
       practices in its capital planning process, schedule delays and other problems cost
       about $155 million in lost revenues and savings.

      Weaknesses in capital project management. Opportunities exist to improve
       project management training, policies, and procedures. The company does not
       provide training for project management, and the company does not have
       company-wide policies and procedures to govern project management.

      Overpayments to host railroads. Over a number of years, the company has
       made substantial overpayments on inaccurate invoices from host railroads,
       which were not detected because of internal control weaknesses in the invoice-
       review processes. Using the results of our analysis, the company recovered more
       than $26.6 million.

      Duplicate payments. Because of weaknesses in the Finance department’s
       payment control processes, the company has made duplicate payments to
       vendors. Using the results of our analysis, Finance department staff is recovering
       about $3.5 million of duplicate payments.

      Management weaknesses in the Americans with Disabilities Act program. The
       company has made limited progress making stations compliant with the
       Americans with Disabilities Act (ADA) of 1990, as amended. The limited
       progress is largely attributable to the program’s fragmented management
       structure, inadequate planning, and a lack of accountability for program results.
                                                                                          4
                             Amtrak Office of Inspector General
                     Top Management and Performance Challenges
                     Report No. OIG-SP-2014-012, September 29, 2014

      Overtime fraud and abuse. Management controls over the approval and
       oversight of overtime are inadequate, which makes the company vulnerable to
       overtime fraud and abuse. Addressing this long-standing issue requires new
       approaches to policies and procedures.

Our investigative work from 2010 through 2013 found that management control
weaknesses contributed to undetected false injury claims by employees and passengers;
overbilling; billing for medical services not rendered by physicians, chiropractors,
dentists, pharmacists, and medical equipment suppliers; product substitution by
employees and contractors; employee theft; and ethics violations.

Efforts to Improve Governance
Over the last three years, the company has taken important steps to improve
governance processes, including:
      developing strategic plans that focus on financial excellence, customer
       satisfaction, and safety
      establishing a group focused on improving internal control by performing
       assessments and recommending ways to improve controls
      developing and implementing a process to manage enterprise risk

The company’s 2011 and updated strategic plans are key improvements in governance.
The initial plan contained specific goals, metrics, and targets to guide efforts to improve
operational and financial performance. It was organized along five strategic themes—
safety and security, customer focus, mobility and connectivity, environment and
energy, and financial and organizational excellence. The plan also contained seven
strategies, numerous initiatives, and dozens of performance measures to track progress.
The plan provided a roadmap for evolving into a company that is focused on the
financial bottom line and more closely aligned employees’ roles and efforts with
common goals.

In 2013, the company updated its strategic plan and narrowed the focus to three themes:
financial excellence, customer focus, and safety and security. Each theme has a goal that
includes performance measures and metrics to determine progress. The goal of
customer focus, for example, is measured by ridership and customer satisfaction
feedback.
                                                                                          5
                             Amtrak Office of Inspector General
                     Top Management and Performance Challenges
                     Report No. OIG-SP-2014-012, September 29, 2014

To help implement its strategies, the company has also undertaken or completed a
number of initiatives, including:

      realigning the management structure to create business line accountability,
       dissolve departmental silos, and move decision-making and accountability closer
       to customers

      implementing a strategic management system to facilitate the execution of its
       strategic plan that it began using in fiscal year (FY) 2012 and continues to use and
       refine in FY 2014

      evaluating and improving the effectiveness of its business processes and
       management controls

      developing a systematic enterprise risk management framework to identify,
       analyze, and manage risk

To improve the capital project selection process, the newly hired Chief Financial Officer
(CFO) has developed and is implementing a new decision-making process that focuses
on costs and benefits. Further, in response to our 2014 report on the need to improve
capital project management, the company stated that it is developing a corporate-wide
Program Management Office to improve cost estimating, scheduling, and project
oversight.

These actions are important to improving the company’s control environment. As we
noted during congressional testimony in 2012, a key to improving the efficiency and
effectiveness of the company’s operations and service is sustaining and fully
implementing its ongoing strategic initiatives. Such a sustained focus should, in turn,
reduce the amount of federal funds the company needs.


ENHANCING FINANCIAL PERFORMANCE IN A
PUBLIC/PRIVATE ENVIRONMENT
One of the company’s three goals in its strategic plan is to achieve financial excellence
by becoming profitable on an operating basis and being good stewards of capital in
order to secure its long-term viability as a company. Amtrak is incorporated and
required by law to be managed as a for-profit corporation. During the last decade,
company officials and federal oversight and audit agencies have identified the
public/private environment as a challenge to improving the efficiency and effectiveness
                                                                                         6
                             Amtrak Office of Inspector General
                     Top Management and Performance Challenges
                     Report No. OIG-SP-2014-012, September 29, 2014

of the company’s operations, and its ability to plan for and build the infrastructure
needed for the future.

Historically, federal policymakers have debated whether the company should operate
as a private for-profit enterprise (like airlines and intercity bus companies) or as a
public service using federal subsidies to achieve social objectives (like urban mass
transit). Currently, the company operates under both scenarios. Thus, the environment
in which the company operates includes relying, in part, on annual federal
appropriations to subsidize its operating losses and fund the majority of its capital
investments.

Amtrak receives federal funding in grants from the U.S. Department of Transportation
(DOT); most are administered by the Federal Railroad Administration (FRA). For
example, the company receives separate annual operating and capital/debt service
grants. In recent years, annual funding from the operating and capital grants exceeded
$1 billion. These grants require federal oversight of the company’s use of the funds and
call for the company to comply with certain requirements. Officials stated that over
time, the oversight and uncertainty has created challenges for the company in
sustaining key efforts to fully improve its passenger rail service. For example, in 2013,
the company reported that so many legislatively mandated tasks and responsibilities
had accumulated over time that it was unclear what to focus on. That view was evident
in the company’s 2011 strategic plan, which had five strategic themes, seven strategies,
numerous initiatives, and dozens of performance measures.

According to company officials, the reliance on annual federal appropriations that do
not provide multi-year funding for capital expenditures hampers the company’s ability
to plan, build, and maintain a safer and more efficient national rail passenger system. In
their view, the unpredictable timing and level of the annual federal appropriations has
negatively affected the company’s ability to initiate and follow through on its plans and
commitments in a timely way.

In that context, company officials identified the infrastructure repair needs in the
Northeast Corridor (NEC) as a significant capital challenge that is made worse by the
absence of a routine multi-year funding source. They noted that they have had to defer
large and complex projects or seek funding alternatives to the annual capital grant.
Amtrak owns 363 miles of track on the corridor—the financial centerpiece of the
company’s nation-wide system, generating 52 percent of total revenue.
                                                                                          7
                            Amtrak Office of Inspector General
                    Top Management and Performance Challenges
                    Report No. OIG-SP-2014-012, September 29, 2014

Officials told us that the following improvements are needed:
   • reconstructing tracks
   • upgrading equipment and facilities
   • rehabilitating the signal system
   • improving passenger stations
   • replacing bridges and tunnels

The company has used alternative federal multi-year funding sources to implement
several key capital projects, including:
   • upgrading a 23-mile section of the NEC between Trenton and New Brunswick,
     New Jersey, using a grant from FRA under the High Speed Intercity Rail
     Program
   • procuring electric locomotives using funds from an FRA Railroad Rehabilitation
     and Improvement Financing loan
   • constructing a concrete casement under the Hudson Yard using FRA grant
     funds from the FY 2013 Disaster Relief Appropriations Act

Even with the successful completion of the ongoing infrastructure projects, the
likelihood of major infrastructure failure on the corridor has grown, according to the
President and Chief Executive Officer (CEO).

Efforts to Improve Financial Performance
As noted, Amtrak has taken steps in implementing its strategic plan, to increase
accountability, and to be profitable on an operating basis. Through these steps, the
company reported that it has reduced its adjusted net operating loss from $446 million
to $355 million in recent years. By using capital and grant funds to pay off high-yield
debt and by refinancing and using leases, it has also lowered its debt by $1.4 billion.

To address its capital funding needs, in its FY 2015 budget request to Congress, the
company proposed that a new process be established for providing capital subsidies to
Amtrak. The company’s proposal calls for a multi-year federal commitment of capital
funding backed by dedicated revenue. More specifically, the company proposed that
the federal government start to provide funding by individual business lines—NEC,
state corridors, long-distance routes, and national assets. Currently, the company uses
the NEC’s operational surplus to partially offset operating losses on state-supported
                                                                                          8
                             Amtrak Office of Inspector General
                     Top Management and Performance Challenges
                     Report No. OIG-SP-2014-012, September 29, 2014

and long-distance trains. To avoid continued de-capitalization of the NEC, the
company’s proposal would invest the NEC’s operational surplus on the corridor to
increase state-of-good-repair work, pursue funding partnerships, and pay for debt
service on loans—some of the larger capital challenges facing the company. The
company believes that this proposal makes it easier to manage the capital program and
for state partners to secure financial commitments to match federal funds.

At the same time, the company is also pursuing a broader range of nonfederal sources
of capital funding. Officials stated that they are actively looking at funding options such
as loans, public private partnerships, and state and commuter rail partnerships.

Continued commitment to reducing operating losses, creating the accountability and
efficiency needed to be good stewards of federal subsidies, and addressing the capital
challenges facing the company should help the company achieve its goal of financial
excellence.


IMPROVING TRAIN OPERATIONS AND ASSET
MANAGEMENT
The company operates more than 300 trains daily over more than 21,000 miles of rail,
serving 523 stations in 46 states, 3 Canadian provinces, and the District of Columbia.
Most of the track is owned by freight railroads, except in the NEC. To undertake these
operations, the company owns more than 2,000 pieces of rail equipment and employs a
workforce of about 3,000 management and 17,000 union agreement employees.

With its diverse operations and total holdings valued at more than $17 billion, the
company faces a significant challenge in ensuring that customers have a consistent,
high-quality travel experience while maintaining safe operations in a manner that
improves financial performance. Our work has identified system-wide opportunities to
improve customer service, safety, and the utilization of assets to reduce costs and
increase revenues. Here are some examples:

      In 2013, we reported that the company had reduced losses from its food and
       beverage service, but those losses could be further reduced by about
       $10.5 million annually by making additional incremental changes to the business
       model. Moreover, outsourcing food and beverage service could substantially
       reduce costs, and piloting options to test new business models could also result
       in savings opportunities.
                                                                                          9
                             Amtrak Office of Inspector General
                     Top Management and Performance Challenges
                     Report No. OIG-SP-2014-012, September 29, 2014

      In 2013, we reported that the company does not have a sufficiently
       comprehensive real property inventory to help accomplish all of its diverse
       strategic real property goals. Further, the inventory data are incomplete and
       inconsistent.

      In 2012, we reported that employees in safety-sensitive positions have tested
       positive for drugs and alcohol more frequently than their peers in the railroad
       industry. For example, in 2011, the company had 17 positive tests for drugs or
       alcohol, which resulted in a combined positive test rate about 51 percent higher
       than the industry average.

      In 2011, we reported that poor on-time performance affects customer service,
       ridership, revenues, and expenses. We reported that improvements in on-time
       performance have a direct effect on increasing the company’s operating revenues
       and decreasing operating costs, which reduces the need for federal subsidies. A
       company official recently said that the on-time performance of the long-distance
       trains is worsening due to increased interference by host freight railroads, which
       has reduced ticket sales and increased operating costs.

Efforts to Improve Train Operations and Asset Management
As outlined in its strategic plan, the company has adopted a business line strategy and
organizational structure to increase revenues and control costs. The three core operating
businesses—the NEC operations, long-distance services, and state-supported services—
continue as previously planned. It also established a fourth business line—corporate
development business—charged with managing system-wide infrastructure, real estate,
and other corporate assets in order to maximize financial and strategic value. The
company believes that by striving for the goal of creating operating profits for each
business line, it creates the accountability and efficiency needed to fulfill its strategic
goals.

Other reported efforts over the last two years include:
      expansion of the Safe-2-Safer program—a behavior-based safety program aimed
       at risk reduction
      improvement in the company’s financial reporting and budgeting processes to
       ensure that decisions align with its strategic plan
      purchase of 70 new locomotives for NEC operations and 130 cars for long-
       distance operations
                                                                                       10
                             Amtrak Office of Inspector General
                     Top Management and Performance Challenges
                     Report No. OIG-SP-2014-012, September 29, 2014

      completion of infrastructure projects to improve service and reliability

Continued commitment to implementing these actions is key to creating the
accountability and efficiency needed to increase revenues and control costs.


IMPROVING ACQUISITIONS AND PROCUREMENT
To provide stewardship over the use of its funds and secure its long-term viability as a
company, Amtrak needs to have efficient and effective processes for acquisition and
procurement. Over the next 30 years, the company plans to spend more than
$150 billion to improve its NEC infrastructure and equipment. The infrastructure
improvements are designed to bring the corridor to a state of good repair by 2025; they
include repair or replacement of bridges, catenary, signals, and tracks. The equipment
improvements include longer train sets to increase near-term capacity, additional high-
speed train sets, and equipment to support the next generation of high-speed rail. To
ensure a high probability of success for these planned programs, the company must
follow business processes that will optimize the cost-effective use of funds in the
acquisition and procurement processes.

Over the last several years, our work has identified significant opportunities to improve
the company’s processes for acquisition and procurement. For example, in 2014 we
identified the following opportunities:

      Organizational alignment and leadership. As a best practice, leading
       organizations align their procurement departments organizationally to play a
       strategic role in the procurement process. The company’s Procurement
       department provides support to the user departments during the procurement
       process, but does not play a strategic role.

      Policies and processes. The company has documented policies and procedures
       that guide personnel through each of the organization’s procurement processes.
       However, unlike the best practices of leading organizations, company
       procurement policies and processes did not incorporate strategic planning
       activities.

      Human capital. At the strategic level, the company started a new program to
       improve its human capital management based on private industry best practices.
       Improving the capabilities and capacities of Procurement staff through this
       program will largely depend on a sustained management commitment.
                                                                                        11
                             Amtrak Office of Inspector General
                     Top Management and Performance Challenges
                     Report No. OIG-SP-2014-012, September 29, 2014

      Knowledge and information management. Best practices for procurement
       knowledge and information systems ensure accurate reporting and reliable data.
       Our prior reviews have identified issues with the accuracy of procurement
       management information.

Efforts to Improve Acquisition and Procurement
In response to our 2014 report on the need to improve the procurement process, the
company has taken a number of steps to position the Procurement department more
strategically and improve its operational effectiveness. It selected a new Chief Logistics
Officer, filled positions with experienced personnel, and realigned the department to
better serve the business lines. Also, the department reports increasing training,
cultivating new suppliers, streamlining procedures and documentation requirements,
and taking steps to improve relationships with other departments.

Recognizing that procurement is a critical management function, the company started
the process to address our report recommendations, including developing a plan that
provides strategic direction and focus to the Procurement department based on best
practices. In August 2014, the Chief Logistics Officer submitted a plan to the President
and CEO that addresses the intent of our recommendations. Many of the plan’s actions
will take a year or more to complete. Again, sustaining the commitment to implement
the actions is key to addressing the challenge of improving the company’s processes for
acquisition and procurement.


USING INFORMATION TECHNOLOGY TO IMPROVE
BUSINESS OPERATIONS
The company relies increasingly on modern information technology (IT) to improve
labor and asset productivity, and to deliver safe and reliable customer service. The
company recognizes that many of its information systems and much of its infrastructure
are outdated and inefficient, lack technical support or upgrades, and will become more
prone to failure. The increasing risk of failure in business-critical systems must be
addressed to ensure the resiliency and continuity of operations. Working with outdated
technology places the company at a competitive disadvantage, limits growth potential,
and restricts its ability to implement operational improvements.

Over the last several years, we have reported on opportunities to improve the
company’s implementation of major IT programs. For example, in 2011, the company
                                                                                     12
                            Amtrak Office of Inspector General
                    Top Management and Performance Challenges
                    Report No. OIG-SP-2014-012, September 29, 2014

implemented one of its largest-ever IT programs—the Strategic Asset Management
(SAM) program—which integrated its financial, procurement, materials management,
and operations systems. In 2012, we reported that the company spent more than
expected and took longer than planned to implement the SAM program and also
experienced greater startup issues than expected.

Procurement officials stated that through October 2013, the department had difficulty
generating accurate management information reports from the newly implemented
system. The company also faced interface and data redundancy issues among IT
systems. These unresolved issues resulted in unreconciled transactional data, which led
to incorrect and delayed processing of purchase orders, goods receipts, and vendor
payments. Some issues related to program implementation remain unresolved today,
such as system interface issues and redundancy of data among systems.

In 2013, we reported that the IT department could have more effectively planned and
managed its approach to acquiring IT services, better administered contracts, and more
effectively held the contractors accountable for meeting contract terms. These services
are critical to the company’s day-to-day operations and represent the company’s largest
IT contract expenditures. For example, we reported the following:

      Because of persistent weaknesses and inconsistencies in program management
       and governance, key modernization programs had not fully achieved their
       business objectives, and the risks of business disruption had increased.

      The company had not consistently received high-quality, cost-effective IT
       support services because it had not established sound management controls and
       business processes to effectively plan acquisitions and to properly oversee
       performance.

      The company had incurred higher-than-necessary costs and faced an increased
       risk of costly interruptions to key business operations.

Efforts to Improve Information Technology
To address the IT challenges, a new Chief Information Officer was hired in June 2012.
Since then, he has completed an organizational assessment; created and filled new
leadership positions; and started other initiatives to improve the economy, efficiency,
and effectiveness of the company’s IT programs and operations. According to the Chief
Information Officer, a new strategy office was created within the IT department to
                                                                                          13
                             Amtrak Office of Inspector General
                     Top Management and Performance Challenges
                     Report No. OIG-SP-2014-012, September 29, 2014

provide strategic planning and direction, manage change, and drive process
improvements. The prior silo structure was dismantled, and a business relationship
office was created to drive business alignment and manage demand. Another business
office was created to manage projects and financials in a more standardized and
effective manner. In addition, a comprehensive sourcing strategy was initiated to
realign third-party capabilities and to reduce the department’s reliance on contractors.

Although these are positive steps, officials cited a number of continuing challenges to
achieving IT performance excellence:
      The state of the IT architecture is overly complex and not flexible.
      Existing system processes are inefficient.
      The application portfolio is too large.
      Reliability and stability of systems could be improved.
      Too many systems perform the same type of functions.

Sustained commitment to addressing the challenges is a key to using information
technology to improve business operations.


IMPROVING HUMAN CAPITAL MANAGEMENT
With a diverse workforce of about 3,000 management and 17,000 union agreement
employees, the company faces the same human capital challenges as similar-sized
federal agencies and private-sector firms. These challenges include: succession planning
for the significant number of employees nearing retirement; recruiting, training,
developing, and retaining staff with the required skills; ensuring the effective and
efficient use of the workforce; and addressing employee integrity issues.

In 2011 and 2012, we identified substantial opportunities to improve the company’s
human capital programs. We noted that the Human Capital department provided
mostly administrative services, including hiring; establishing benefits; processing
separations, promotions, and retirements; and tracking training. These tasks focused on
compliance, rather than building staff capacity and capability. We also reported the
following:

      The company suffered from outdated processes in human capital management,
       training, and employee development, which hindered its ability to perform
       effectively.
                                                                                       14
                            Amtrak Office of Inspector General
                    Top Management and Performance Challenges
                    Report No. OIG-SP-2014-012, September 29, 2014

      Management control weaknesses in hiring practices—particularly in the use of
       background investigation information—led to the waste of resources and the
       hiring of employees with past performance or other concerns, which created
       risks for the company.

      Weak controls over the use of temporary management assignments, coupled
       with inconsistent practices for paying back wages, may have had serious
       financial consequences for the company.

During 2012 and 2013, our investigative work in human capital management
documented employee embezzlement and theft, illegal drug use, false statements on
employment applications, improper reporting of time and attendance, and ethics
violations. This work led to suspensions, terminations, criminal convictions, and
improved management controls.

Efforts to Improve Human Capital Management
Over the last several years, the company has invested in modernizing its human capital
processes to bring them more into line with other leading companies. For example, it
hired a new chief human capital officer in 2011 and developed a three-year strategic
plan that outlines initiatives to improve human capital management, training, and
employee development.

In August 2012, the Board of Directors approved a new human capital strategy—Total
Rewards & Integrated Talent Management—based largely on private industry best
practices. Because the strategy is in the early stages of implementation, we have not yet
assessed its overall impact. A number of initiatives have been completed, and others are
underway, including an overhaul of compensation and performance evaluation
programs. The strategy aims to build a high-performance culture that is more closely
aligned to private-sector business strategy, provides flexibility for employee rewards,
and invests in highly qualified employees. In addition, the company has introduced a
number of changes to help attract, develop, and retain its workforce, such as physical
capabilities testing, a targeted selection process, and a recruiting management system.
The company also established a goal: by 2015, recruit qualified veterans as 25 percent of
all new hires.

Officials note that strengthening human capital management practices remains a
significant challenge, and this challenge will intensify as experienced employees in key
                                                                                        15
                             Amtrak Office of Inspector General
                     Top Management and Performance Challenges
                     Report No. OIG-SP-2014-012, September 29, 2014

positions retire or migrate to other business opportunities. As with all of the other
challenge areas, sustained commitment to implementation will be a key to success.
                                                                                            16
                             Amtrak Office of Inspector General
                     Top Management and Performance Challenges
                     Report No. OIG-SP-2014-012, September 29, 2014

                                       Appendix A

                              RELATED REPORTS

In conducting our analysis of the issues, we reviewed and used information from the
following oversight and audit reports, listed by issue from newest to oldest:

Sustaining Commitment to Improving Governance
      Governance: Injury Claims Trend Data for Fiscal Years 2010 through 2013
       (OIG-MAR-2014-008, July 17, 2014)
      Governance: Improved Policies, Practices, and Training Can Enhance Capital Project
       Management (OIG-A-2014-009, July 15, 2014)
      Governance: Opportunities Exist to Improve the Travel Card Program and Reduce Risks
       (OIG-A-2014-005, April 18, 2014)
      Corporate Governance: Planned Changes Should Improve Amtrak’s Capital Planning
       Process, and Further Adoption of Sound Business Practices Will Help Optimize the Use
       of Limited Capital Funds (OIG-E-2013-020, September 27, 2013)
      Governance: Most Procurement Card Controls are Effective, but Some Need to be
       Strengthened (OIG‐A‐2013‐019, September 26, 2013)
      Governance: Enhanced Controls Needed To Avoid Duplicate Payments
       (OIG-A-2013-018, September 20, 2013)
      Amtrak Invoice Review: Internal Control Weaknesses Lead to Overpayments
       (Union Pacific) (OIG-A-2013-011, March 28, 2013)
      Amtrak Invoice Review: Internal Control Weaknesses Lead to Overpayments
       (Metro North) (OIG-A-2013-010, March 27, 2013)
      Amtrak’s New Cost Accounting System Is a Significant Improvement But Concerns
       Over Precision and Long Term Viability Remain, DOT OIG (March 27, 2013)
      Audit of Grant Agreement: Next Generation Equipment Committee Materially Complied
       with Terms of the Grant Agreement (OIG-A-2013-012, March 27, 2013)
      Amtrak Invoice Review: Internal Control Weaknesses Lead to Overpayments (BNSF)
       (OIG-A-2013-008, March 26, 2013)
      Amtrak Invoice Review: Internal Control Weaknesses Lead to Overpayments
       (Southern Pacific) (OIG-A-2013-007, March 13, 2013)
                                                                                            17
                          Amtrak Office of Inspector General
                  Top Management and Performance Challenges
                  Report No. OIG-SP-2014-012, September 29, 2014

   Amtrak Invoice Review: Undetected Inaccuracies Resulted in Overpayments
    (OIG-A-2013-006, February 15, 2013)
   Amtrak Improvement Initiatives: Sustained Attention and Effective Implementation
    Keys to Success, Statement of Ted Alves, Inspector General, National Railroad Passenger
    Corporation (OIG‐T‐2013‐001, November 28, 2012)
   Annual Financial Statement Audits: Observations for Improving Oversight of the
    Independent Public Accountant (OIG-A-2012-017, September 27, 2012)
   Opportunities for Amtrak to Build on Its Initiatives to Improve Efficiency and
    Effectiveness, Statement of Ted Alves, Inspector General, National Railroad Passenger
    Corporation (OIG‐T‐2012‐022, September 20, 2012)
   Food And Beverage Service: Initiatives to Help Reduce Direct Operating Losses Can Be
    Enhanced by Overall Plan (OIG-A-2012-020, September 7, 2012)
   Amtrak Invoice Review: Undetected Errors Resulted in Overpayments
    (OIG-A-2012-019, September 5, 2012)
   Claims Program: Use of Best Practices Would Strengthen Management Controls
    (OIG-A-2012-016, August 14, 2012)
   Food and Beverage Service: Opportunities Exist to Build on Program Improvement
    Initiatives, Statement of Ted Alves, Inspector General, National Railroad Passenger
    Corporation (OIG-T-2012-015, August 2, 2012)
   On-Time Performance Incentives: Inaccurate Invoices Were Paid (OIG-A-2012-013,
    June 29, 2012)
   Amtrak Corporate Governance: Implementing a Risk Management Framework is
    Essential to Achieving Amtrak’s Strategic Goals (OIG-A-2012-007, March 30, 2012)
   Amtrak Invoice Review: Inaccurate Invoices Were Paid, But Progress is Being Made to
    Improve the Invoice-Review Process (OIG-A-2012-005, February 16, 2012)
   On-Time Performance Incentives: Inaccurate Invoices Were Paid Due to Weaknesses in
    Amtrak’s Invoice-Review Process (OIG-A-2012-004, February 15, 2012)
   Progress and Opportunities in Amtrak’s Implementation of the Passenger Rail
    Investment and Improvement Act of 2008, Statement of Ted Alves, Inspector General,
    National Railroad Passenger Corporation (TM-11-01, September 14, 2011)
   Food and Beverage Service: Further Actions Needed to Address Revenue Losses Due to
    Control Weaknesses and Gaps (E-11-03, June 23, 2011)
                                                                                              18
                              Amtrak Office of Inspector General
                      Top Management and Performance Challenges
                      Report No. OIG-SP-2014-012, September 29, 2014

      On-Time Performance Incentives: Inaccurate Invoices Were Paid Due to Long-standing
       Weaknesses in Amtrak’s Invoice-Review Process (403-2010, April 21, 2011)
      Burlington Northern Santa Fe (BNSF) On-Time Performance Incentives: Inaccurate
       Invoices and Lack of Amtrak Management Review Lead to Overpayments (407-2003,
       September 24, 2010)
      Amtrak’s Strategic Planning (E-10-01, August 17, 2010)
      Amtrak Employee Tested Positive for Marijuana (10-031, June 18, 2010)
      American Recovery & Reinvestment Act of 2009: Assessment of Project Risks Associated
       with Key Engineering Projects (912-2010, May 14, 2010)
      Opportunities and Challenges Facing Amtrak in FY 2011 and Beyond, Statement of Ted
       Alves, Inspector General, National Railroad Passenger Corporation
       (TM-10-01, April 29, 2010)

Enhancing Financial Performance in a Public/Private Environment
      Intercity Passenger Rail: National Policy and Strategies Needed to Maximize Public
       Benefits from Federal Expenditures (GAO-07-15, November 13, 2006)
      Amtrak Management: Systemic Problems Require Actions to Improve Efficiency,
       Effectiveness, and Accountability (GAO-06-145, October 4, 2005)
      Amtrak: The Political and Social Aspects of Federal Intercity Passenger Rail Policy,
       Congressional Research Service (December 23, 2004)
      The Past and Future of U.S. Passenger Rail Service, Congressional Budget Office
       (September 2003)
      Amtrak Profitability: An Analysis of Congressional Expectations at Amtrak’s Creation,
       Congressional Research Service (June 26, 2002)

Improving Train Operations and Asset Management
      Train Operations and Business Management: Addressing Management Weaknesses Is
       Key to Enhancing the Americans with Disabilities Program (OIG-A2014-010, August
       4, 2014)
      Asset Management: Amtrak Followed Sound Practices in Developing a Preliminary
       Business Case for Procuring Next-Generation High-Speed Trainsets and Could
       Enhance its Final Case with Further Analysis (OIG-E-2014-007, May 29, 2014)
                                                                                        19
                          Amtrak Office of Inspector General
                  Top Management and Performance Challenges
                  Report No. OIG-SP-2014-012, September 29, 2014

   Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
    Requirements that Deserve Consideration for Future Authorizing Legislation
    (OIG-A-2014-003, January 9, 2014)
   Food and Beverage Service: Potential Opportunities to Reduce Losses (OIG-A-2014-001,
    October 31, 2013)
   Asset Management: Amtrak Is Preparing to Operate and Maintain New Locomotives,
    but Several Risks to Fully Achieving Intended Benefits Exist (OIG-E-2013-021,
    September 27, 2013)
   Real Property Management: Applying Best Practices Can Improve Real Property
    Inventory Management Information (OIG-A-2013-015, June 12, 2013)
   Asset Management: Integrating Sound Business Practices into its Fleet Planning
    Process Could Save Amtrak Hundreds of Millions of Dollars on Equipment
    Procurements (OIG-E-2013-014, May 28, 2013)
   Railroad Safety: Amtrak Has Made Progress in Implementing Positive Train Control,
    but Significant Challenges Remain (OIG-E-2013-003, December 20, 2012)
   Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use by
    Employees in Safety-Sensitive Positions (OIG-E-2012-023, September 27, 2012)
   Analysis of the Causes of Amtrak Train Delays, DOT OIG (July 10, 2012)
   Mechanical Maintenance: Improved Practices Have Significantly Enhanced Acela
    Equipment Performance and Could Benefit Performance of Equipment Company-wide
    (OIG-E-2012-008, May 21, 2012)
   Acela Car Purchase: Future Revenue Estimates Were Initially Overstated
    (OIG-E-2012-010, March 28, 2012)
   Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good
    Progress, but Continued Commitment Needed to Fully Address Provisions (2012-001,
    October 26, 2011)
   Americans with Disabilities Act: Leadership Needed to Help Ensure That Stations
    Served by Amtrak Are Compliant (109-2010, September 29, 2011)
   Acela Car Purchase Draft Request for Proposal: Additional Requirements and Pre-
    Award Audit Clause Needed to Help Assess Proposed Cost and Price (009-2011,
    September 21, 2011)
   American Recovery and Reinvestment Act: Infrastructure Improvements Achieved but
    Less than Planned (908-2010, June 22, 2011)
                                                                                           20
                            Amtrak Office of Inspector General
                    Top Management and Performance Challenges
                    Report No. OIG-SP-2014-012, September 29, 2014

     American Recovery and Reinvestment Act: Fewer Security Improvements than
      Anticipated Will be Made and Majority of Projects Are Not Complete (914-2010,
      June 16, 2011)
     Evaluation of Amtrak’s FY 2010 Fleet Strategy: A Commendable High-Level Plan That
      Needs Deeper Analysis and Planning Integration (E-11-2, March 31, 2011)
     Amtrak’s Infrastructure Maintenance Program (E-09-05, September 29, 2009)

Improving Acquisitions and Procurement
     Acquisition and Procurement: Closer Alignment with Best Practices Can Improve
      Effectiveness (OIG-A-2014-006, May 7, 2014)
     Acquisition and Procurement: Gateway Program’s Concrete Casing Project Progressing
      Well; Cost Increases Will Likely Exceed Project Budget
      (OIG-A-2014-004, February 11, 2014)
     American Recovery and Reinvestment Act: Opportunities Exist to Recover Funds and
      Reduce Future Costs by Improving Procurement Policies (OIG-A-2013-016,
      July 29, 2013)
     Acela Car Purchase: Questioned Costs Identified in Price Proposal (OIG-A-2013-002,
      December 4, 2012)
     American Recovery and Reinvestment Act: Some Questioned Invoice Charges and
      Minimal Benefit from Duplicative Invoice-Review Process (OIG-A-2012-021,
      September 21, 2012)
     Amtrak Procurement Policy Violated (PA-11-0240, July 25, 2012)
     Amtrak Procurement Policy Violated (DC-11-0291, June 11, 2012)
     Acela Car Purchase: Future Revenue Estimates Were Initially Overstated
      (OIG-E-2012-010, March 28, 2012)
     Incurred-Cost Contract Audit: Contract Modification Charges for Extended Indirect
      Overhead Costs Not Supported (OIG-A-2012-006, February 17, 2012)
     Incurred-Cost Contract Audit: Bridge Construction Modification Settlement Agreement
      Cost is Adequately Supported (OIG-A-2012-002, November 7, 2011)
     Price Proposal Audit: Amtrak Should Negotiate a Price Adjustment to a Major
      Acquisition Contract (219-2010, January 12, 2011)
     Incurred Cost Audit: Amtrak’s Track Replacement and Related Improvements Contracts
      (504-2009, December 22, 2010)
                                                                                          21
                            Amtrak Office of Inspector General
                    Top Management and Performance Challenges
                    Report No. OIG-SP-2014-012, September 29, 2014

     Incurred Cost Audit: Amtrak’s Design/Build Improvements Contract (503-2009,
      December 13, 2010)
     Questionable Contract Language in Kiewit Contract for Sounder Preventative
      Maintenance Track Replacement and Related Improvements, and South End Track and
      Related Improvements, Seattle, WA (508-2009, December 2, 2010)
     Lessons Learned: An Analysis of the Acela and Surfliner Programs
      (E-09-04, July 21, 2009)

Using Information Technology to Improve Business Operations
     Information Technology: Opportunities Exist to Improve Services, Economies, and
      Contract Performance (OIG‐A‐2013‐013, April 16, 2013)
     Strategic Asset Management Program: Opportunities to Improve Implementation and
      Lessons Learned (OIG-E-2012-012, May 31, 2012)
     Wireless Network Security: Internal Controls Can be Improved (OIG-A-2012-003,
      December 7, 2011)
     Strategic Asset Management Program: Further Actions Should be Taken to Reduce
      Business Disruption Risk (001-2011, June 2, 2011)
     Strategic Asset Management Program Controls Design Is Generally Sound, But
      Improvements Can Be Made (105-2010, January 14, 2011)

Improving Human Capital Management
     Overtime Abuse at the Los Angeles Yard (OIG-I-2014-504, February 27, 2014)
     Management of Overtime: Best Practices Can Help in Developing Needed Policies and
      Procedures (OIG-A-2013-009, March 26, 2013)
     Fraud: Overtime Fraud and Abuse by Amtrak’s Mid-Atlantic Communications and
      Signals Department Employees (OIG-I-2012-018, September 5, 2012)
     Human Capital Management: Weaknesses in Hiring Practices Result in Waste and
      Operational Risk (OIG-A-1012-14, July 19, 2012)
     Amtrak Employees Failed To List Felony Convictions (DC-11-0338, July 17, 2012)
     Human Capital Management: Controls Over the Use of Temporary Management
      Assignments Need Improvement (OIG-E-2012-009, March 28, 2012)
     Amtrak Ticket Agent Terminated for Providing False Information on Application
      (DC-11-0115, January 3, 2012)
                                                                                22
                          Amtrak Office of Inspector General
                  Top Management and Performance Challenges
                  Report No. OIG-SP-2014-012, September 29, 2014

   Human Capital Management: Lack of Priority Has Slowed OIG-Recommended Actions
    to Improve Human Capital Management, Training, and Employee Development
    Practices (E-11-04, July 8, 2011)
   Operation RedBlock: Actions Needed to Improve Program Effectiveness
    (E-11-01, March 15, 2011)
   Amtrak Employee Suspended for Claiming Time Not Worked
    (09-036, September 1, 2010)
   Training and Employee Development (E-09-06, October 26, 2009)
   Human Capital Management (E-09-03, May 15, 2009)
                                                                    23
                      Amtrak Office of Inspector General
              Top Management and Performance Challenges
              Report No. OIG-SP-2014-012, September 29, 2014

                               Appendix B

              ACRONYMS AND ABBREVIATIONS

ADA           Americans with Disabilities Act of 1990, as amended
CEO           Chief Executive Officer
CFO           Chief Financial Officer
DOT           Department of Transportation
FRA           Federal Railroad Administration
FY            fiscal year
GAO           Government Accountability Office
IT            information technology
NEC           Northeast Corridor
OIG           Amtrak Office of Inspector General
SAM           Strategic Asset Management program
the company   Amtrak
                                                                                       24
                            Amtrak Office of Inspector General
                    Top Management and Performance Challenges
                    Report No. OIG-SP-2014-012, September 29, 2014



            OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission         The Amtrak OIG’s mission is to provide independent,
                             objective oversight of Amtrak’s programs and operations
                             through audits, inspections, evaluations, and investigations
                             focused on recommending improvements to Amtrak’s
                             economy, efficiency, and effectiveness; preventing and
                             detecting fraud, waste, and abuse; and providing Congress,
                             Amtrak management, and Amtrak’s Board of Directors
                             with timely information about problems and deficiencies
                             relating to Amtrak’s programs and operations.


Obtaining Copies of OIG Available at our website: www.amtrakoig.gov
Reports and Testimony
To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                             Web:     www.amtrakoig.gov/hotline
                             Phone:   800-468-5469


Congressional and            David R. Warren
Public Affairs               Assistant Inspector General, Audits
                             Mail:    Amtrak OIG
                                      10 G Street NE, 3W-300
                                      Washington D.C., 20002
                             Phone:   202-906-4600
                             Email:   david.warren@amtrakoig.gov
